<html>
<title> - INTERRUPTING TERRORIST TRAVEL: STRENGTHENING THE SECURITY OF INTERNATIONAL TRAVEL DOCUMENTS</title>
<body><pre>[Senate Hearing 110-103]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-103
 
     INTERRUPTING TERRORIST TRAVEL: STRENGTHENING THE SECURITY OF 
                     INTERNATIONAL TRAVEL DOCUMENTS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON TERRORISM,
                    TECHNOLOGY AND HOMELAND SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 2, 2007

                               __________

                          Serial No. J-110-32

                               __________

         Printed for the use of the Committee on the Judiciary

                     U.S. GOVERNMENT PRINTING OFFICE

36-943 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001






                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                 DIANNE FEINSTEIN, California, Chairman
EDWARD M. KENNEDY, Massachusetts     JON KYL, Arizona
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERBERT KOHL, Wisconsin              JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         JOHN CORNYN, Texas
RICHARD J. DURBIN, Illinois          SAM BROWNBACK, Kansas
BENJAMIN L. CARDIN, Maryland         TOM COBURN, Oklahoma
                      Jennifer Duck, Chief Counsel
               Stephen Higgins, Republican Chief Counsel







                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     1
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................    17
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     4

                               WITNESSES

Donovan, Patrick D., Assistant Director for Diplomatic Security, 
  Director of Domestic Operations, Bureau of Diplomatic Security, 
  Department of State, Washington, D.C...........................     7
Ervin, Clark Kent, Director of Homeland Security, Aspen 
  Institute, and Former Inspector General, Department of Homeland 
  Security, and Author, Washington, D.C..........................    26
Everitt, Michael P., Unit Chief, Forensic Document Laboratory, 
  Immigration and Customs Enforcement, Department of Homeland 
  Security, Washington, D.C......................................     9
Morris, Paul, Executive Director, Admissibility Requirements and 
  Migration Control, Office of Field operations, Customs and 
  Border Protection, Department of Homeland Security, Washington, 
  D.C............................................................    12
Noble, Hon. Ronald K., Secretary General, Interpol, Lyon, France.    23
Simkin, Andrew, Director, Office of Fraud Prevention Programs, 
  Bureau of Consular Affairs, Department of State, Washington, 
  D.C............................................................     5
Zimmer, Brian, Senior Associate, Kelly, Anderson & Associates, 
  and Former Senior Investigator, Committee on the Judiciary, 
  U.S. House of Representatives, Washington, D.C.................    28

                         QUESTIONS AND ANSWERS

Responses of Andrew Simkin to questions submitted by Senators 
  Feinstein and Schumer..........................................    37
Responses of Paul Morris and Michael Everitt to questions 
  submitted by Senators Schumer and Feinstein....................    45

                       SUBMISSIONS FOR THE RECORD

Donovan, Patrick D., Assistant Director for Diplomatic Security, 
  Director of Domestic Operations, Bureau of Diplomatic Security, 
  Department of State, Washington, D.C., statement...............    61
Ervin, Clark Kent, Director of Homeland Security, Aspen 
  Institute, and Former Inspector General, Department of Homeland 
  Security, and Author, Washington, D.C., statement..............    66
Everitt, Michael P., Unit Chief, Forensic Document Laboratory, 
  Immigration and Customs Enforcement, Department of Homeland 
  Security, Washington, D.C., statement..........................    72
Kephart, Janice, former Counsel, 9/11 Commission and President, 
  9/11 Security Solutions, LLC...................................    84
Morris, Paul, Executive Director, Admissibility Requirements and 
  Migration Control, Office of Field operations, Customs and 
  Border Protection, Department of Homeland Security, Washington, 
  D.C., statements...............................................    87
Noble, Hon. Ronald K., Secretary General, Interpol, Lyon, France, 
  statements.....................................................    94
Simkin, Andrew, Director, Office of Fraud Prevention Programs, 
  Bureau of Consular Affairs, Department of State, Washington, 
  D.C., statement................................................   115
United States Department of State, Washington, D.C., Visa and 
  Passport Security Strategic Plan...............................   127
Zimmer, Brian, Senior Associate, Kelly, Anderson & Associates, 
  and former Senior Investigator, Committee on the Judiciary, 
  U.S. House of Representatives, Washington, D.C., statement and 
  attachments....................................................   167


     INTERRUPTING TERRORIST TRAVEL: STRENGTHENING THE SECURITY OF 
                     INTERNATIONAL TRAVEL DOCUMENTS

                              ----------                              


                         WEDNESDAY, MAY 2, 2007

                      United States Senate,
          Subcommittee on Terrorism, Technology and
                                         Homeland Security,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Dianne 
Feinstein, Chairman of the Subcommittee, presiding.
    Present: Senators Feinstein, Schumer, and Kyl.

OPENING STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM 
                    THE STATE OF CALIFORNIA

    Chairman Feinstein. I would like to call this Subcommittee 
meeting to order. My Ranking Member, Senator Kyl, is here. I 
believe we will be joined by Senator Schumer, who has asked to 
make a statement, and, of course, we will afford him that 
opportunity.
    We are going to try to move this as quickly as possible. 
Senator Kyl has a critical appointment at around 10:30, and I 
have one at noon. But this is an important Subcommittee, and I 
would just like our witnesses to try to think about what they 
are going to say and say it in as close to 5 minutes as you 
possibly can. And I will begin with a statement that hopefully 
will set the parameters for the hearing.
    For terrorists, international travel documents are as 
important as weapons. Now, that is not my statement. That is 
the conclusion of the authors of the 9/11 report over 5 years 
ago. The 9/11 report pointed out that international travel 
presents greater danger to terrorists because they must surface 
to pass through regulated channels. They must present 
themselves to border security officials or attempt to 
circumvent inspection points.
    The moment that the terrorist presents a false document to 
Border Patrol inspectors is a critical moment in the protection 
of our borders. In that short, brief interview at the border 
point, the officer must be able to determine whether the person 
attempting to enter the United States intends to harm the 
people of this country.
    Today there are many tools that a border inspector or the 
consular officer or other Government agents can use to identify 
real travelers from those with bad motives. The ongoing 
question and the reason we are here today is whether United 
States Government agencies are taking advantage of all those 
tools.
    This is a subject we come back to over and over again in 
this Subcommittee, and this is a subject that is extremely 
important to me. I am not going to rest until I believe that 
the United States Government is taking all the security 
measures it can take to interrupt terrorist travel.
    The point of this hearing today is to assess where we are 
and where the Government still needs to improve when it comes 
to document security. We cannot be complacent when it comes to 
this subject. The evidence has shown repeatedly that false 
travel documents provide a gateway for organized crime and 
terror.
    The 9/11 terrorists devoted extensive resources to 
acquiring and manipulating passports, all to avoid detection of 
their nefarious activities and objectives. We know, for 
example, that at least two of the 9/11 hijackers used passports 
that were altered when they entered this country, and as many 
as 15 of the 19 had some other irregularity with their travel 
document.
    In the 5 years since 9/11, of the 353 individuals who the 
Department of Justice classified and prosecuted as 
international terrorists, 24 were charged with document crimes. 
For example, in September of 2005, Mohammed Khalil was 
convicted on several visa fraud charges. Mr. Khalil was the 
ringleader of a massive visa fraud scheme operating out of a 
mosque he established in a Brookyln basement. Over a 10-year 
period, Khalil sponsored over 200 fraudulent applications for 
individuals seeking religious work visas to enter the United 
States, charging cash fees ranging from $5,000 to $8,000 
dollars. Prosecutors claim that he netted more than $600,000 
from the scheme.
    Although Khalil has not been linked to specific terrorist 
activities, prosecutors pointed to a taped conversation in 
which Khalil reportedly praised Osama bin Laden and called for 
Muslims to arm themselves for another attack.
    In another case, defendants Cedric Carpenter and Lamont 
Ranson were prosecuted and sentenced in Mississippi for 
conspiring to sell false documents to individuals they believed 
were members of Abu Sayyaf, a Philippine-based group designated 
as a foreign terrorist organization.
    In my own home State of California, seven counterfeit 
document mills in Los Angeles were seized on March 30, 2006. 
ICE agents arrested 11 individuals on charges of supplying a 
significant number of the fraudulent identity and immigration 
documents being sold on the streets of Los Angeles.
    Now, it is true most of this is to bring people illegally 
across the border, but, nonetheless, there is no safeguard on 
how these false documents can be used.
    And just this past December, the United States Department 
of State's Diplomatic Security Service charged 25 defendants in 
Los Angeles for attempting to obtain and actually obtaining 
United States passports using fake identities.
    Today, over 5 years later, Interpol reports that they have 
records of more than 12 million stolen and lost travel 
documents from 113 different countries. Now, these are the only 
ones we know about, but Interpol is a vast source of 
information. And as far as I know--and I am sure these 
witnesses will correct me if I am wrong--the Government does 
not scan passports to pick up on the Interpol data, which I 
think is a significant lapse if, in fact, it is true. Interpol 
estimates that 30 to 40 million travel documents have been 
stolen worldwide.
    We know that over the past few years, passport and visa 
forgery has become more sophisticated thanks to new technology. 
In the past, the tools of the counterfeit document trade were 
typewriters and pieces of plastic. Today's document forgers use 
computer software and high-resolution digital scanners to ply 
their trade. Criminal organizations are also using the Internet 
to market and distribute fake documents and immigration 
benefits to customers.
    It is not only foreign passports that can be forged. Forged 
and fraudulent United States passports can be most dangerous 
when in the wrong hands, because with a U.S. passport criminals 
can establish American citizenship and have unlimited access to 
virtually every country in the world.
    Despite evidence that these crimes are widespread and that 
millions of travel documents are on the black market, in 2004 
the State Department's Diplomatic Security Service reports that 
it made about 500 arrests for passport fraud with only 300 
convictions.
    For these reasons, I believe that our job is not over. 
Senator Sessions and I have introduced a bill to strengthen 
current passport and visa laws in a number of key ways. Our 
bill would create strong penalties to punish those who traffic 
in fraudulent travel documents. This must happen. The current 
law makes no distinction between those caught with multiple 
false travel documents, the very worst offenders who are often 
part of organized crime rings, and those with only one false 
document. Our bill would change that.
    We would also add provisions to the current passport and 
visa fraud laws to ensure that conspiracies and attempts to 
commit these crimes are investigated and prosecuted just as 
vigorously as the completed crime. Currently, offenders who 
engage in passport or visa fraud generally serve less than a 
year in prison, providing little incentive for U.S.
    Attorney's Offices to expend scarce resources in 
prosecuting these crimes, and that is a big problem.
    So we think our bill provides much needed reform. It 
strengthens the penalties against people using documents to 
illegally gain entry to this country and empowers the agents 
and prosecutors who enforce our borders to take swift and 
strong action against these criminals.
    So I hope my colleagues, including my colleague on the 
right, will join Senator Sessions and me in cosponsoring this 
important legislation. But legislation is not enough. The 
Department of Homeland Security and State Department must work 
with Interpol to ensure that the front-line inspectors, those 
at airports and consular offices, have real-time access--real-
time access--to lost and stolen passport databases. The 
inspectors must be trained to use these databases to ensure 
that no one carrying a stolen passport is allowed into this 
country.
    So that is what this hearing is all about. We have very 
credible and informed witnesses, and I would like to turn it 
over to my Ranking Member, with whom I have worked now on this 
Committee I guess for at least 10 years.
    Senator Kyl. Over 12 years now.
    Chairman Feinstein. Over 12 years.
    Senator Kyl. Time flies when you are having fun.
    Chairman Feinstein. It has been a great pleasure for me. 
Senator Kyl.

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Madam Chairman, thank you, and let me begin by 
thanking you for holding this hearing.
    First let me say that I agree with everything you have 
said. This is a bipartisan issue. We have worked in this 
Subcommittee in a very constructive and bipartisan way now for 
over 12 years, and it is a pleasure always to work with you, 
now to be your wing man now that the political tables are 
slightly turned here. It does not make any difference in this 
Subcommittee.
    But this is an excellent complement, actually, to a hearing 
that we held last September when we focused on ways of how to 
improve the security of international flights to the United 
States without necessarily interfering--or disrupting, I should 
say, the travel for many millions of people who fly here every 
day.
    But Senator Feinstein is absolutely right that complacency 
could be one of our main enemies here. We should recall that 9/
11 began, with all due respect, to the State Department's 
inadequate interviews--actually, they had contracted it out to 
private parties--and inadequate review and document inspection, 
which allowed the 9/11 hijackers to come in and stay in the 
United States.
    It seems to me the question now is not so much how much 
progress we have made, but how much more we need to do. If 
another 9/11 were to happen, people would ask would more could 
have been done, and I think everybody here today--and judging 
from some of the statements that I have read of the witnesses, 
it is clear that everyone agrees that more reasonably can be 
done.
    I would like to thank all of the witnesses for being here 
today and especially a couple that I have contacted, Secretary 
General Ron Noble of Interpol, for joining us. Our office has 
been in contact and working to improve security, and Senator 
Feinstein has discussed that. And also Mr. Brian Zimmer. The 
appendix in Mr. Zimmer's testimony on the Federal laws that 
Congress has passed to improve Federal identity documents is a 
very good summary, and I think that will be very helpful to us.
    The arrival of international terrorism to our shores has 
made us all aware of the need for improved security at our 
borders and ports of entry. We have had to adapt to a much more 
sophisticated enemy than I think any of us had thought when the 
terrorist attacks first occurred. And we have had to adapt with 
more sophisticated screening mechanisms, identity documents, 
data sharing, and the like.
    So the testimony that I think we will hear today, again, 
while it shows that we have come a long way, I think will also 
reveal how much more work remains to be done. And our 
obligation here in Congress will be to continue to initiate 
efforts such as Senator Feinstein mentioned, as well as to work 
with the administration to improve domestic security, pass 
meaningful legislation that addresses the gaps in security, and 
importantly then to provide the funding that is necessary to 
effectuate the changes that we all believe are necessary. So 
again, Senator Feinstein, thank you for holding this very 
important hearing.
    And as Senator Feinstein said, I will have to leave just 
before 10:30, and please know that that in no way detracts from 
my interest in this. And I may have questions that I will want 
to submit to the witnesses as a result of the oral testimony 
here.
    Thank you, Madam Chairman.
    Chairman Feinstein. Thank you very much, Senator.
    I might say that Ron Noble is the Secretary General of 
Interpol, and he has come here from Lyon, France, and we very 
much appreciate it. He will lead off on the second panel. But I 
would like to introduce the first panel to you, and we will go 
right down the line.
    The first person testifying will be Andrew Simkin. He is 
the Director of Fraud Prevention Programs, the Bureau of 
Consular Affairs of the Department of State.
    The second person will be Patrick Donovan, the Assistant 
Director for Domestic Operations and Acting Director of 
Diplomatic Security for Counter Measures of the Department of 
State.
    And Michael Everitt, the Unit Chief of the Forensic 
Documents Laboratory, Immigration and Customs Enforcement, the 
Department of Homeland Security.
    And then, finally, Paul Morris, the Executive Director of 
Admissibility Requirements and Migration Control, Office of 
Field Operations from United States Customs and Border 
Protection.
    So as you can see, this is a very qualified and credible 
panel, and I just hate to do it, but we would like to ask 
questions. So if you could say what you mean in 5 minutes, it 
would really be appreciated, and I will ask the clocks to be 
started. Thank you very much.
    Mr. Simkin, may we start off with you.

     STATEMENT OF ANDREW SIMKIN, DIRECTOR, OFFICE OF FRAUD 
PREVENTION PROGRAMS, BUREAU OF CONSULAR AFFAIRS, DEPARTMENT OF 
                    STATE, WASHINGTON, D.C.

    Mr. Simkin. Thank you, Chairman Feinstein, Ranking Member 
Kyl. I appreciate this opportunity to discuss the work that we 
do to interrupt terrorist travel. It is a tremendously 
important topic for America, and it is one to which I have 
dedicated a lot of thought and effort over my 20 years of 
service as a consular officer.
    As you indicated, Chairman Feinstein, the staff members of 
the 9/11 Commission identified travel as some of the key 
moments for interrupting terrorists' activities. One comparison 
that I heard was comparing terrorists to submarines operating 
in hiding most of the time, but needing to surface at key 
moments, making them more vulnerable to detection. When a 
terrorist applies for a visa to enter our country, it is a key 
moment of opportunity for us to interrupt his travel. Airline 
check-in and port-of-entry screening are other key moments.
    I would like to describe some of the things that we are 
doing to take maximum advantage of those opportunities.
    Our systems for checking names and biographic data against 
terrorist watchlists and other databases are more comprehensive 
and sophisticated than ever before. Thanks to interagency data 
sharing, we are making good progress in international sharing 
of data on known terrorists and data on lost and stolen 
passports. We have added biometric capabilities using both 
fingerprinting and facial recognition technology to identify 
persons who may be applying for visas under false identities. 
We recently began the rollout of an upgrade from a two-
fingerprint system to ten prints. This transition should be 
finished by December of this year.
    Bearing in mind that many persons with criminal intent have 
no known record and, thus, do not appear in any biographic or 
biometric database, we take advantage of personal interviews 
conducted by consular officers specially trained to observe 
demeanor and detect inconsistencies, who ask applicants all 
sorts of questions. In addition to the interview, consular 
officers use an increasingly sophisticated array of techniques 
and technologies to defeat visa fraud.
    By law, the burden of proof is on the applicant. On an 
average day at over 200 posts around the world, we turn away 
5,000 foreign nationals who do not qualify for visas because 
they fail to meet that burden of proof.
    The terrorist's travel may be deterred by the risk that he 
might not only be refused a visa, but that information we 
gather from his application, including fingerprints, phone 
numbers, et cetera, may compromise his entire operation. We 
work closely with DS, DHS, and other U.S. Government colleagues 
to follow up on cases of suspected fraud or security concerns.
    Along with our efforts to prevent terrorists from receiving 
U.S. travel documents, we also seek to safeguard the integrity 
of visas and passports against alteration, forgery and misuse. 
We share our U.S. visa and passport databases with our Customs 
and Border Protection colleagues so that any document can be 
electronically verified.
    The U.S. passport was also recently completely redesigned, 
incorporating multiple new security features, including an 
electronic chip, and I have brought samples of the new 
passports for the Committee.
    Chairman Feinstein. These are fraudulent passports?
    Mr. Simkin. No. These are genuine. I believe you each 
should have one sample of the e-passport, which is the regular 
passport, with the symbol on the cover indicating electronic 
chip. And the other sample is the emergency photo digitized 
passport.
    Chairman Feinstein. This is the symbol?
    Mr. Simkin. Correct, yes. The other is the new emergency 
photo digitized passport, which is now in effect at all of our 
posts overseas, issued to persons who have emergency travel, 
such as having lost a passport overseas. These are issued for 
up to one year of validity.
    Chairman Feinstein. Could you provide the Committee with 
some samples of fraudulent passports so we might--
    Mr. Simkin. We certainly could.
    Chairman Feinstein.--see the different technique used.
    Mr. Simkin. We would be happy to.
    Chairman Feinstein. Please continue.
    Mr. Simkin. OK. In conclusion, I thank you for your 
interest in the work of consular officers, who truly work the 
front line in interrupting terrorist travel while at the same 
time serving as the public face of America, showing fairness 
and consideration in dealing with millions of legitimate 
travelers.
    I look forward to answering your questions.
    [The prepared statement of Mr. Simkin appears as a 
submission for the record.]
    Chairman Feinstein. Thank you very much, Mr. Simkin.
    Mr. Donovan?

    STATEMENT OF PATRICK D. DONOVAN, ASSISTANT DIRECTOR FOR 
DOMESTIC OPERATIONS OF THE DIPLOMATIC SECURITY SERVICE, BUREAU 
 OF DIPLOMATIC SECURITY, DEPARTMENT OF STATE, WASHINGTON, D.C.

    Mr. Donovan. Good morning, Madam Chair and Ranking Member 
Kyl. I am honored to appear before you today with my 
distinguished colleagues. I would like to thank you and the 
Committee members for your continued support and interest in 
the Bureau of Diplomatic Security's protective and 
investigative programs. I would especially like to thank you 
for your support in strengthening passport and visa 
legislation. Through congressional support, DS safeguards 
American diplomats and facilities around the world and protects 
the integrity of U.S. travel documents. With your permission, I 
would like to present a brief statement and submit a copy of 
our Visa and Passport Security Strategic Plan as my full 
testimony for the record.
    One of the most critical national security challenges that 
the American people will face for the foreseeable future is the 
desire by terrorist groups and individuals to inflict 
catastrophic harm upon the United States. A key element in all 
terrorist operational planning is access to the target. Such 
access requires the acquisition of travel documents, including 
visas and passports--
    Chairman Feinstein. Could you pull the mike down just a 
little bit, please?
    Mr. Donovan. I am sorry, ma'am?
    Chairman Feinstein. Pull the mike a little bit down. I 
think you will pick up better. Thank you.
    Mr. Donovan. Such access requires the acquisition of travel 
documents, including visas and passports, that allow terrorists 
to enter, and move freely within, our country.
    As the law enforcement arm of the Department of State, DS 
is responsible for upholding the integrity of the U.S.
    visa and passport through enforcement of relevant portions 
of the United States Criminal Code. DS is the most 
geographically extensive Federal law enforcement agency in the 
United States Government, with approximately 1,400 Special 
Agents dispersed among 25 field and resident offices 
domestically, with representation on 26 Joint Terrorism Task 
Forces, and with assignments to U.S. embassies and consulates 
in 159 countries. DS is uniquely positioned and committed to 
meet the serious national security challenge of travel document 
fraud. Our agents conduct investigations into passport and visa 
fraud violations wherever they occur. Our partnership with the 
Bureau of Consular Affairs has enabled us to jointly focus on 
protecting the U.S. passports and visas.
    Overseas, we work with foreign partner nations to target 
and disrupt document fraud rings and human smuggling networks. 
Domestically, we work with local, State, and Federal law 
enforcement agencies to investigate, arrest, and seek 
prosecution of fraud violators. Throughout this global network 
of law enforcement professionals, DS Special Agents are on the 
front lines of combating terrorist and criminal travel.
    Terrorists targeting the U.S. attempt to discover, 
manipulate, and exploit vulnerabilities within our travel 
document system. To successfully counter this threat, DS has 
crafted a Visa and Passport Strategic Plan that leverages our 
international expertise and worldwide presence. The plan 
provides the framework for a Visa and Passport Security Program 
and will significantly augment the Department's ongoing efforts 
to prevent terrorist travel. Our approach incorporates the 
principles of the National Strategy to Combat Terrorist Travel 
and the objectives of the Intelligence Reform and Terrorism 
Prevention Act of 2004.
    The Strategic Plan requires the deployment of additional DS 
personnel to critical posts worldwide, resources to enhance our 
intelligence and data-sharing efforts, and training and 
technical assistance to our foreign partners. Presently DS 
Special Agents assigned to consular sections abroad focus 
solely on travel document fraud. By the end of this year, DS 
will have 33 Special Agents assigned to key posts investigating 
document fraud. By the end of 2008, we will have 50 agents in 
this capacity. Since 2004, the results have been promising, 
yielding nearly 1,050 arrests for document fraud and related 
offenses, in excess of 3,400 visa refusals and revocations, and 
more than 6,200 foreign law enforcement and security personnel 
trained.
    The plan is built on a cornerstone of three strategic 
goals: to defend the U.S. and our foreign partners from 
terrorist attack through aggressive, coordinated international 
law enforcement actions and initiatives; to detect terrorist 
activity, methods of operation, and trends that exploit 
international travel vulnerabilities; and, lastly, to disrupt 
terrorist efforts to use fraudulent travel documents through 
strengthening the capabilities of our foreign partners by such 
highly successful programs as the DS' Anti-Terrorism Assistance 
Program.
    Our Strategic Plan offers a comprehensive and proactive 
approach to ensuring the integrity and security of U.S.
    passports and visas.
    Thank you for the opportunity to brief you on this vital 
aspect of DS's mission. I look forward to answering your 
questions.
    [The prepared statement of Mr. Donovan appears as a 
submission for the record.]
    Chairman Feinstein. Thanks, Mr. Donovan.
    Mr. Everitt?

STATEMENT OF MICHAEL P. EVERITT, UNIT CHIEF, FORENSIC DOCUMENTS 
LABORATORY, IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT OF 
              HOMELAND SECURITY, WASHINGTON, D.C.

    Mr. Everitt. Good morning, Chairman Feinstein, Ranking 
Member Kyl, distinguished members of the Subcommittee. I am 
pleased to be here today to discuss strengthening the security 
of international travel documents to prevent terrorist travel. 
The U.S. Immigration and Customs Enforcement Forensic Document 
Laboratory is dedicated exclusively to fraudulent document 
detection and deterrence. The FDL is accredited by the American 
Society of Crime Lab Directors-Laboratory Accreditation Board 
(ASCLD/LAB) in questioned documents and latent prints and 
enjoys a worldwide reputation for excellence in the detection 
and identification of fraudulent travel and identity documents.
    The FDL provides a wide variety of forensic and support 
services to all Department of Homeland Security components, 
including ICE, CBP, USCIS, the Secret Service, and the Coast 
Guard. The FDL also supports all Federal, State, and local 
agencies, as well as foreign government law enforcement and 
border control entities upon request. The FDL is an integral 
part of a comprehensive approach to disrupting terrorist travel 
and works both domestically and internationally to strengthen 
the security of international travel documents.
    The FDL is like many other forensic laboratories in that it 
has a cadre of highly trained and experienced forensic 
scientists and support staff who conduct forensic examinations. 
These FDL employees make up the Forensic Section of the FDL and 
include forensic document examiners, physical scientists, ink 
chemists, fingerprint specialists, forensic photographers, and 
seized property specialists. This team of experts processes 
over 5,000 submissions each year.
    The training requirements for the forensic section 
positions are rigorous. As an example, before conducting their 
first solo examination, forensic document examiners must 
successfully complete an in-house, 30-month, full-time training 
program. Comprehensive training programs such as these are 
necessary to acquire and maintain laboratory accreditation and 
personal certification.
    The FDL differs from most forensic laboratories in that it 
also has a separate group of employees who collect and analyze 
information developed by the Forensic Section about fraudulent 
documents and distributes that information to the field via 
publication, real-time support, and training. These employees 
are senior intelligence officers that make up the Operations 
Section of the FDL. Many of the senior intelligence officers 
working at the FDL have previously worked at large ports of 
entry and have extensive experience with international 
travelers and the documents that they use.
    Operations Section personnel provides real-time support to 
field personnel throughout the world with questions about 
suspected documents. These personnel include Department of 
State consular officers adjudicating visa requests, USCIS 
personnel adjudicating requests for immigration-related 
benefits, and ICE and CBP personnel working in the field and at 
ports of entry and other Federal, State, and local law 
enforcement officers. In fiscal year 2006, the FDL received 
over 5,200 inquiries of which more than 2,400 were from non-DHS 
agencies.
    Publications produced by the Operations Section include 
Document Alerts, Intelligence Briefs, and Reference Guides. 
These publications are printed and distributed to more than 
over 800 law enforcement and border control agencies worldwide 
to assist officers in identifying fraudulent documents. Many of 
these documents are also posted on DHS Internet portals to make 
them available to other law enforcement entities.
    Senior intelligence officers also design and provide 
fraudulent document recognition and training programs for DHS 
personnel and other Federal, State, and local law enforcement 
officers. This fiscal year alone, the FDL has trained more than 
1,900 individuals in locations around the world, including the 
United States, South Africa, El Salvador, Botswana, Jordan, 
Trinidad and Tobago, Kenya, Turkey, and Yemen. Much of this 
training is in support of Department of Homeland Security, 
Department of Justice, and Department of State initiatives. The 
FDL also receives requests for training from State and local 
law enforcement and from private concerns.
    The problem of fraudulent documents is a perplexing one. 
The wide availability of technology to create high-quality 
fraudulent documents demands that the producers and issuers of 
legitimate documents develop and use new security features and 
production techniques that cannot easily be duplicated. Many 
new security features and production techniques have been 
developed; unfortunately, they are not always used in many 
travel and identity documents issued in the United States and 
other places throughout the world.
    Travel and identity document producers and those who issue 
legitimate documents are in a constant battle to develop new 
production and security features and make travel and 
identification documents more secure. We try to assist in that 
and providing counterfeit deterrence studies to those who 
produce travel and identity documents.
    It is important to understand that fraudulent travel and 
identity documents are not only a challenging problem for the 
United States, but for law enforcement officials throughout the 
world. As long as identification is required to travel and 
obtain services, criminals and terrorists will attempt to 
produce fraudulent documents. The ICE FDL will continue to work 
diligently to combat the production and use of fraudulent 
documents through our efforts in document examination, the 
development of higher-quality documents, and the training of 
law enforcement and border control officers throughout the 
world.
    On behalf of the men and women of ICE, and specifically the 
men and women of the Forensic Document Laboratory, who are the 
country's subject matter experts on travel and identity 
documents, I thank the Subcommittee and its distinguished 
members for your continued support. I would also extend an open 
invitation to members to visit the ICE Forensic Document 
Laboratory as I believe you would find the visit both 
interesting and enlightening.
    I would be pleased to answer your questions at this time.
    [The prepared statement of Mr. Everitt appears as a 
submission for the record.]
    Chairman Feinstein. Thank you very much, Mr. Everitt.
    Because Senator Kyl has to leave, he would like to ask you 
a couple of questions.
    Senator Kyl. I just have one main question, and I will try 
to submit written questions to the rest of you. But with proper 
training, could a person detect the counterfeiting of a U.S. 
passport if that passport has been screened into a computer 
from an off-site computer to, let's say, a DHS office here in 
Washington?
    Mr. Everitt. I am sorry, sir. I am not sure I understand 
your question.
    Senator Kyl. You take the passport in Omaha, Nebraska, and 
you screen it into a computer, which is connected to DHS.
    Mr. Everitt. Yes.
    Senator Kyl. A trained individual looks at that computer 
screen with the passport on it. Can you detect--to what degree 
of certainty could you detect a counterfeiting of that U.S. 
passport?
    Mr. Everitt. That is a service that actually the FDL 
provides through real-time support. What we would do then is we 
work--it is not a matter of us just looking at that scanned 
image. We would be on a two-way communication with that person. 
We are looking at the image. We are asking them questions--Do 
you see this? Do you see that?--looking for specific security 
features in the document.
    That two-way transaction, oftentimes we can help them make 
a determination, which is a probable cause determination, of 
whether or not that document is valid or not.
    Senator Kyl. Excuse me. How trained would the person on the 
transmitting side have to be?
    Mr. Everitt. Basically trained enough to have the initial 
suspicion that the document was bad.
    Senator Kyl. Let us assume that this is simply being used 
to determine something like eligibility for employment and 
there is no training involved, but simply an individual who is 
putting it on a computer screening device to transmit to, let's 
say, the Department of Homeland Security for a determination of 
validity, and you have the basic information typed in, but then 
you are looking at the photograph and other features on it.
    Mr. Everitt. They would have to at least have some cursory 
amount of training to understand what we are asking, the 
questions that we are asking them. In other words, they would 
have to understand what a hologram was or what a kinegram--not 
the technical aspects of those, but at least to know what we 
are referring to or what we are asking them to look at.
    Senator Kyl. What would be involved in that cursory amount 
of training?
    Mr. Everitt. It is training that we do that can last 
anywhere from 4 hours up to a couple days.
    Senator Kyl. So it would be impractical if every employer 
in the country were required to do this, to assume that they 
could be adequately trained for this to work, for this to 
provide some high level of confidence that you can detect a 
fraudulent passport?
    Mr. Everitt. It would require some pretty extensive 
training, yes, sir.
    Senator Kyl. OK, just by the simple mechanism of screening 
it into the computer.
    Mr. Everitt. Yes, sir. Using that process, yes, sir.
    Senator Kyl. Because you use a specifically designed piece 
of equipment at the ports of entry for--or do you? Let me ask 
that question. Is this strictly a visual thing with the 
inspectors? Or is there a piece of equipment that is used?
    Mr. Everitt. It is a visual examination of the document. 
The equipment that is used is a reader that is reading the 
machine-readable zone, the MRZ.
    Senator Kyl. Right.
    Mr. Everitt. And then is making queries against databases 
based on that information.
    Senator Kyl. OK. Good. Thank you very much.
    Mr. Everitt. You are welcome.
    Chairman Feinstein. Thank you very much, Senator.
    Mr. Morris, would you like to proceed?

  STATEMENT OF PAUL MORRIS, EXECUTIVE DIRECTOR, ADMISSIBILITY 
REQUIREMENTS AND MIGRATION CONTROL, OFFICE OF FIELD OPERATIONS, 
CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY, 
                        WASHINGTON, D.C.

    Mr. Morris. Good morning, Chairman Feinstein, Senator Kyl. 
I am very pleased to be here today to discuss how the 
Department of Homeland Security, particularly U.S. Customs and 
Border Protection, is moving forward on programs that will 
facilitate travel, but still provide the level of security 
required to protect the United States and, of course, interrupt 
terrorist travel. This is an enormous challenge. We share more 
than 7,000 miles of borders with Canada and Mexico and operate 
325 official ports of entry. Each year, CBP front-line officers 
inspect more than 422 million travelers through official land, 
air, and sea ports of entry.
    I begin by expressing my gratitude to the Subcommittee for 
the support you have shown for important initiatives that 
enhance the security of our homeland. Your continued support 
has enabled CBP to make significant progress in effectively 
securing our borders and protecting our country against 
terrorist threats.
    DHS is committed to working with Secretary General Noble of 
Interpol on the implementation of the Stolen Lost Travel 
Document (SLTD) system this year. CBP has taken the lead in the 
implementation of this program, and we are currently on 
schedule to become the first major country to use the SLTD as 
an integrated prescreening tool.
    Since its inception on March 1, 2003, CBP has worked 
diligently to facilitate the flow of legitimate travelers into 
the U.S. A small percentage of travelers, however, attempt to 
enter the U.S. illegally through the use of fraudulent 
documents or other fraudulent means. In response, CBP has 
implemented a number of complementary programs, both 
domestically and internationally.
    The standardization of travel documents is a critical step 
to securing our Nation's borders. Currently, travelers can 
present thousands of different documents to prove their 
citizenship when attempting to enter the U.S. The Western 
Hemisphere Travel Initiative (WHTI) requires all travelers to 
present a passport or valid travel document to enter the U.S.
    The initial phase of WHTI went into effect January 23, 
2007, obligating all air travelers to present a passport or 
other acceptable secure document for entry to the U.S. The 
implementation of the air portion of WHTI was highly 
successful, with documentary compliance rates of 99 percent and 
no interruption to air transportation.
    As early as January 1, 2008, travelers arriving by land or 
sea will be required to present a valid passport or other 
secure document, as determined by DHS, working with the 
Department of State.
    US-VISIT uses biographic and biometric information to 
enhance the security of U.S. citizens and visitors. Biometric 
data obtained overseas when the Department of State issues a 
traveler's visa is verified with the biometric data collected 
at the port of entry, confirming that the individual applying 
for admission is the same person who was granted the visa. 
Biometrics protect our Nation and our visitors by making it 
virtually impossible for anyone else to claim their identity 
should their travel documents, such as a visa, be stolen or 
duplicated.
    Each year approximately 15 million people from designated 
Visa Waiver Program, or VWP, countries enter the U.S. free to 
travel for 90 days without a visa. In an effort to provide for 
secure verification of passport validity and to better detect 
fraudulent passports from VWP countries, e-passports were 
mandated for participating countries in October 2006. These e-
passports, which have an embedded electronic circuit chip--
similar to the one used by the U.S.--contain biographic and 
biometric data, and they assist CBP front-line officers in 
detecting fraudulent passports and passports in which the 
photograph was substituted or altered.
    In a continuing effort to extend our zone of security 
outward, the Immigration Advisory Program (IAP) posts officers 
overseas at high-volume, high-risk airports to screen 
passengers before they board aircraft destined for the U.S. 
Since the IAP became operational, more than 1,624 passengers 
have been prevented from boarding planes bound for the U.S. 
Current IAP locations include Amsterdam, Warsaw, London-
Heathrow, and Tokyo-Narita.
    Additionally, the Carrier Liaison Program was developed to 
enhance our border security by helping commercial carriers to 
become more effective in identifying improperly documented 
passengers destined for the U.S. And in December 2006, we 
established three Regional Carrier Liaison Groups that provide 
24/7 points of contact for carriers and assist them in making 
recommendations not to board aliens identified as fraudulently 
or improperly documented. These RCLGs in fiscal year 2007 so 
far have denied boarding for 419 improperly documented 
travelers, 150 of whom were carrying fraudulent documents.
    In January 2005, we established the Fraudulent Document 
Analysis Unit to collect documents, provide ports with analysis 
of document trends and intelligence information, and target 
persons being smuggled into the U.S. using fraudulent 
documents.
    In addition to those initiatives, we have been working in 
four areas to improve the data CBP gathers and maintains on 
lost and stolen passports:
    First, we have been refining the use of targeting systems 
to search for ``near misses'' to account for alterations of 
passport numbers by forgers attempting to defeat the watch 
listing of lost and stolen documents.
    We are currently accessing the Interpol SLTD, and as we 
continue that work with Interpol, we will increase our ability 
to access that information in different ways.
    We are working with Australia and New Zealand on the 
Regional Movement Alert System pilot, and this is a trilateral 
pilot that enables participating countries to access data on 
lost, stolen, and otherwise invalid travel documents in real 
time.
    And we are working to become the first point of intake for 
all lost and stolen passport information to the U.S. This would 
ensure that this critical data is immediately directed to the 
border screening system.
    Chairman Feinstein, Senator Kyl, I have outlined today some 
of the ways that CBP and DHS, working with our key partners, 
detect and intercept fraudulent documents at or before the 
border, while facilitating legitimate trade and travel. I 
appreciate this opportunity to testify and would be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Morris appears as a 
submission for the record.]
    Chairman Feinstein. Thank you very much, Gentlemen. I 
appreciate it.
    I would like to refer you, Mr. Morris--and you will have to 
just take these numbers down and read it--pages 11, 12, 13, and 
14 of the transcript from a hearing held in this Subcommittee 
on September 7, 2006, and the Homeland Security witness was 
special counsel Mr. Rosenzweig, and I asked some questions, and 
I would like to quickly go over them. And I am talking about a 
GAO report here that has been done on the Visa Waiver Program, 
and it says, ``It also recommends that DHS develop and 
implement a plan to make Interpol's stolen travel document 
database automatically available to immigration officers at 
primary inspection points.''
    And then we go on to, ``What four countries do not share 
lost or stolen passport information with Interpol?'' And the 
countries at that time are Holland, Japan, Norway, and Sweden.
    And then I would like to quote to you Mr. Rosenzweig's 
testimony. ``My goal would be to have the operational 
difficulties resolved, at least in theory, by the end of this 
year and then operational in the second or third quarter of 
next year. That is an aspirational goal, I should add.'' And 
then I say, ``Of 2006? I am writing it down, and I am going to 
get you to sign it afterwards.''
    Rosenzweig: ``Absolutely.''
    Feinstein: ``Operational when? ''
    Rosenzweig: ``My goal is the second or third quarter of 
next year, 2007.''
    Mr. Ahern: ``Senator, if I might add a little more, give my 
colleague here a break for a second, if I might,'' and he goes 
on: ``...it is reflected that we get a considerable amount of 
lost and stolen passport information directly into our systems 
today through the State Department. We also get a direct feed 
from the U.K. Government to the State Department on lost and 
stolen passports. So we have a considerable amount of lost and 
stolen passports in our system today, so that is fed in through 
the Department of State's class system into our integrated 
border inspection system. So we do have access to a 
considerable amount.''
    Now, I have been trying on and on and on to get a time for 
a real-time Interpol connection, and here we have testimony 
that it will be in place by the second or third quarter of this 
year. My question: Will DHS meet this goal?
    Mr. Morris. I believe that we will, Senator. We--
    Chairman Feinstein. So your answer is ``yes, I believe,'' 
or ``yes''?
    Mr. Morris. We are currently designing the system within 
Interpol. We intend to test the system in early fall of this 
year, and we will have a pilot test at a major U.S. 
international airport in place shortly thereafter. Immediately 
after that brief pilot test, we intend to have a rapid 
deployment to the balance of our border control system.
    Chairman Feinstein. Well, I will be asking Mr. Noble these 
questions, but I assume--let me try and extrapolate what I hear 
from that. There will be a pilot test by the second or third 
quarter of this year. That pilot test will go on for how long?
    Mr. Morris. Approximately 30 days.
    Chairman Feinstein. Thirty days, and then after the 30-day 
period, a full system will be put in place. And that will take 
how long to put in place?
    Mr. Morris. If the pilot is successful and we are able to 
address any issues or concerns that may arise at that point, it 
should be a rapid deployment.
    Chairman Feinstein. And what does that mean?
    Mr. Morris. That as soon as we can put the system in place, 
it will be in place.
    Chairman Feinstein. Well, are we talking about 1 month, 6 
months, a year?
    Mr. Morris. Without knowing what the success of the pilot 
may be at this point, I would say it would be much more rapid 
than that. We are hoping for immediate implementation after the 
pilot if the issues can be addressed.
    Chairman Feinstein. I guess my problem always is hope, you 
know, goal, and generally no time deadline is ever kept. So I 
really hope this is an exception because I really believe the 
security of our Nation is at stake. And I think this is a very 
worthwhile program.
    Mr. Morris. And we agree 100 percent, Senator. And perhaps 
I should correct my statement and say that we expect that it 
will be a rapid implementation immediately after the pilot is 
concluded.
    Chairman Feinstein. OK. I will have you back after the 
third quarter, and I will pull out this transcript of today and 
read it back to you, and hopefully we will be there.
    Mr. Morris. Do I have to sign it, Senator?
    [Laughter.]
    Chairman Feinstein. With that understanding. All right.
    If I might ask a question, and then I see we are joined by 
Senator Schumer, and he wants to make a statement and ask some 
questions, so I will turn it over to him. The two passports, 
Mr. Simkin, that you gave us, one of the passports looks like 
the face page is embossed onto the passport. Is that correct? 
And that is the passport of Allen Ethan, or Ethan Allen.
    Mr. Simkin. This one is an emergency photo digitized 
passport. This is the new system for issuing passports in 
emergencies at our posts overseas, and it is actually printed 
on a sticky foil that is then placed in the passport book. And, 
yes, there are some security features there over the photo and 
over the biographic data.
    Chairman Feinstein. Is this a process that is easy for 
somebody to replicate?
    Mr. Simkin. It is not easy to replicate.
    Chairman Feinstein. But can it be replicated outside of the 
Government?
    Mr. Simkin. We are not aware of any successful attempts to 
replicate this at this point. Of course, there are people 
always trying to duplicate our documents, so it is a constant 
effort to stay ahead of those efforts.
    Chairman Feinstein. Right. Well, I have a relatively new 
passport, and it has a chip embedded in it.
    Mr. Simkin. Yes.
    Chairman Feinstein. And the face page is very different 
than these face pages.
    Mr. Simkin. Is it similar to the model--
    Chairman Feinstein. It is blue. It is a regular--yes, it is 
not an official passport. So I am puzzled by this. It is a much 
thicker page, and I thought all new passports were being done 
that way.
    Mr. Simkin. This exemplar is the current exemplar, and it 
is the only one that has the chip in it.
    Chairman Feinstein. Which one is that?
    Mr. Simkin. The one with the symbol on the cover with the 
two bars and the circle in the middle.
    Chairman Feinstein. Right. All right. So this has a chip in 
it?
    Mr. Simkin. Yes.
    Chairman Feinstein. And this, too, is blended onto the 
page. I guess--
    Mr. Simkin. Yes, in this case it is printed on this page. 
It is not on a foil that is stuck into the passport. And then 
it is protected by a crystogram, and it is hard to tell, but we 
have actually an image of the U.S. Capitol in the center of the 
crystogram, an image of George Washington in the upper right, 
which make it difficult to alter or forge.
    Chairman Feinstein. Yes. I do not see either of them, but--
Mr. Simkin. I found it hard in this light. You sort of have to-
Chairman Feinstein. Right.
    Mr. Simkin. Yes.
    Chairman Feinstein. OK. One other question. Mr. Everitt, 
today there is no law that prohibits the trafficking in ten or 
more passports or other travel documents. And one of the things 
I have learned from reading intelligence is that within visa 
waiver countries, there are large numbers of stolen passports, 
Geneva Convention travel documents, international driver's 
licenses.
    In your experience, has the number of document mills that 
produce false documents for sale been increasing?
    Mr. Everitt. It is hard to say whether they have been 
increasing or not. There has always been a large number of 
document mills for producing fraudulent documents. It is one of 
those things that you do not know they are there until you find 
them.
    I can say that there is a huge number of fraudulent 
documents circulating throughout the world.
    Chairman Feinstein. What effort is made to round up the 
stolen passports that are stolen--and I cannot mention the 
countries, but they are European countries--by the thousands? 
What effort is being made to secure those documents?
    Mr. Everitt. Well, I think that all the countries, just 
like us, you know, have investigative elements that are out 
there looking for these documents, trying to find them whenever 
they can. And, of course, anytime that these documents are 
encountered at ports of entry or exit, whether it be in Europe 
or in the United States, they are immediately seized.
    We get reports on a fairly consistent basis of these 
documents--
    Chairman Feinstein. Do we have the methodology to be able--
let's say a Central European country experienced a large theft 
of counterfeit-proof passports and it is a visa waiver country, 
and that passport can be bought by someone who would do us 
harm, who comes into this country with the passport from a visa 
waiver country. What is being done to see that that does not 
happen?
    Mr. Everitt. Well, hopefully the country that had the 
passports stolen would report those to Interpol. Those numbers 
would then be transmitted to CBP through the National Targeting 
Center. That information is passed amongst all the different 
types of entities. Lookouts are placed for them, and then 
hopefully when that person attempts to use that passport, it 
will be interdicted and they will be stopped.
    Chairman Feinstein. Well, I would be curious, then, because 
I have sent your agency the intelligence report on the theft, 
and I would be very interested in knowing exactly what action 
was taken, if any. So might I ask you that question, and we 
will follow that up with a letter as well.
    Mr. Everitt. Yes, ma'am.
    Chairman Feinstein. OK. Thank you.
    Senator Schumer, thank you for joining us.

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Well, thank you, Senator Feinstein. I want 
to thank you for holding a very important hearing. Securing 
international travel documents is a critical building block of 
the larger project of border security. And as a representative 
of a border State, like Chairman Feinstein, I fully agree with 
her. We need security and efficiency at our international 
borders. We need both.
    My question today is going to focus on a specific travel 
document, the so-called PASS card, People Access Security 
Services card. As everybody is probably aware, this is the card 
Department of State and Homeland Security are proposing to 
issue to travelers as part of the Western Hemisphere Travel 
Initiative. I am very dubious of the PASS card. I have serious 
questions about it. Again, I think that in a certain sense it 
is bureaucracy at its worst, taking an overall solution that 
has worked in other places and not looking at how it works when 
you go across the border, that people travel from Fort Erie, 
Canada, to Buffalo daily--every day back and forth--and they do 
not get passports. They do not apply in advance to travel. It 
is expensive and will really hurt commerce.
    At the same time, I have some privacy concerns, and I am 
disappointed that Homeland Security once again, instead of 
trying to be creative and find a solution that both will deal 
with our security needs as well as the travel back and forth, 
does not try to do that. And they say, well, passports work 
when you fly from Detroit to Munich; therefore, they can work 
when you go from Hamilton, Ontario, to Detroit. It is just 
different, and we are not looking at that.
    I am really troubled by everything about it, and one would 
hope that we would have an executive branch that would deal 
with the problems, the unique problems that citizens have in 
Washington State, in North Dakota, in Michigan, in New York, in 
Maine, instead of just saying we are going to try to shove this 
round peg through a square hole, call it by a slightly 
different name, and not deal with the problems that it will 
create, or, oh, they will adjust to it.
    What if people do not? What if commerce across the Niagara 
River slows down by a third and the economy, which is tough 
enough in wester New York, plummets?
    So I am disappointed, I have to say. I want security. I do 
not want to back off on security. I would prefer not to delay 
anything--but not if we just get these kinds of answers, which 
I think we have gotten, Madam Chairman, throughout the whole 
system.
    So that is where my questions are aimed. I am worried about 
the PASS card because of the inefficiencies, without the 
security. In a sense, we are getting the worst of all worlds. 
And when I say security assurances, I am concerned both about 
the security of the borders and about the privacy and security 
of individuals' personal information.
    DHS has said they want to require these passports in 
January 2008--that is pretty soon--even though the final 
deadline is not until June 2009, about 18 months later. Yet we 
have yet to see a regulation, a final regulation on the WHTI or 
on the proposed PASS card. So there are a whole lot of 
unanswered questions, and it is supposed to be less than 6 
months away. It is mind-boggling.
    I hope we will get the answers soon, maybe even in a few 
minutes. In the meantime, we have to deal with the issue.
    The State Department has said it will process PASS cards 
just like passports, but it is now a 10-week wait for a 
passport. Are we going to have a 10-week wait for somebody who 
learns of a wedding, say, and wants to go across the border in 
6 weeks? Or for a school bus, a bunch of school kids that want 
to go look at something in Buffalo and they are from Canada? It 
is going to change the whole way of life because the Niagara 
River is not unlike the Hudson River in the sense that people 
cross it regularly, day by day, and that is true in Detroit and 
it is in true in Washington State and it is true in Maine. It 
is true in other parts of New York State.
    So, I do not know, I just do not see the concern here. We 
need to be careful that we are maintaining efficiency and 
protecting security. And I hope this hearing will advance the 
cause.
    So my questions are mainly directed at Paul Morris and 
Andrew Simkin of DHS and State. First, you said you want to use 
radiofrequency vicinity-read technology in the proposed PASS 
card. That is not the most secure technology available for this 
type of card. The PASS cards lacks many of the security 
features that are possible for, say, the e-passport. However, 
State and DHS have claimed that the proposed PASS card 
technology will be more efficient. I appreciate and agree with 
the goal, but I want to look behind the claim that the PASS 
card would both be secure and efficient, that it would let us 
have our cake and eat it, too.
    So my question to you two gentlemen is: The proposed 
technology for the PASS card is different from the technology 
used for existing U.S. border documents like e-passport and 
Nexus registered traveler card, right? I assume that is 
correct. Yes?
    Mr. Simkin. Well, the technology is actually still subject 
to some testing and analysis before a final decision will be 
made. But the proposal is, yes, it would be vicinity-read.
    Senator Schumer. All right. Now, Mr. Morris, if you 
disagree with any of that, you can chime in. But you agree it 
is different, I presume. OK. Given this specific technology has 
not been used for U.S. travel documents before, have the 
proposed PASS cards themselves been field tested in a real 
border environment?
    Mr. Simkin. No.
    Senator Schumer. No. And we are supposed to have this fully 
implemented in 9 months, right?
    Mr. Simkin. Well, actually the time range could be as early 
as January 2008 by law, or it could be as late as June of 2009.
    Senator Schumer. OK. And you do not have a set date yet by 
which you will be ready?
    Mr. Simkin. We do not have a set date.
    Senator Schumer. OK. What about the machines to read the 
PASS cards? Has DHS or State done any field test of these cards 
readers, Mr. Morris?
    Mr. Morris. Well, it comes down to the final technology 
that is selected for the card and testing in conjunction with 
that. We have done some field testing of various technologies. 
It is certainly in general a viable technology. The final 
solution, we will have to take a look at it.
    Senator Schumer. But the type you aim to use has not been 
tested yet in the field?
    Mr. Morris. That is correct, sir.
    Senator Schumer. OK. So you have stated, both State and 
DHS, that PASS cards will be readable at 20 feet away as a car 
approaches the border crossing. Is that a guess? I mean, do we 
know when there is a traffic stream with different lanes and 
different cars going back and forth that it will work 20 feet 
away?
    Mr. Simkin. The passport card is an alternate to the paper 
passport. As you know, we have a proposed rule, and I know that 
you submitted comments, and many of your constituents did. 
Those comments are being evaluated now prior to the issuance of 
a final rule, and it is a joint State and DHS effort.
    We are committed to working closely with the National 
Institute of Standards and Technology to ensure that whatever 
technology goes into the card is a workable one.
    Senator Schumer. Yes, but we do not know if it is readable 
at 20 feet yet. We have not done an on-the-ground experiment 
yet or--
    Mr. Simkin. It is going to require extensive testing.
    Senator Schumer. It is? OK. So we have not done that yet.
    OK. The current plan also requires CPB to have a database 
that will store and pull up personal information based on the 
PASS cards. That database would be a gold mine for identity 
theft thieves and terrorists. What testing has been done to 
make sure the database is protected from hackers and from 
physical attacks? Because it is going to be in a lot of places, 
I guess, or accessible in a lot of places. Mr. Morris?
    Mr. Morris. As with all of our systems of law enforcement 
information, they are appropriately firewalled, appropriately 
secured to ensure that none of the Privacy Act-protected 
information is going to make it into the hands of anyone but 
those that need it and have appropriate access to the--
    Senator Schumer. Well, that is a general hypothetical 
statement. What specific plans have been done, put in place? I 
mean, you are saying you are going to implement it as early as 
8 months from now or 7 months from now. What practical steps 
have been taken, what tests have been done, to make sure that 
it cannot be--that identity thieves cannot prey on this?
    Mr. Morris. I would have to take that back as a question 
for the record, sir.
    Senator Schumer. OK. If we could by unanimous consent, I 
would be happy to get an answer in writing. In a week?
    Mr. Morris. Certainly.
    Chairman Feinstein. So ordered.
    Senator Schumer. Thank you.
    So it is a real concern that the proposed PASS card will be 
just as inconvenient and inefficient at busy border crossings 
as a passport book and will be a double whammy because it 
provides less security than the new e-passports. And I do not 
see a change here. Let me just ask a couple of other questions.
    What is your answer to the 10-week backlog that we now have 
with passports given the needs that people have right away, 
given the fact that only 7 percent--I get the numbers mixed up. 
It is 7 percent of either Canadians or Americans have a 
passport and 9 percent of the other, at least in the western 
New York area.
    Mr. Simkin. OK. Nationally, we believe it is about 27 
percent of American citizens hold passports at the present 
time. That is going up. As a result of the Western Hemisphere 
Travel Initiative, we have seen a very strong surge in passport 
demand. Last year, we issued a record 12.1 million passports. 
This year, we are on track to issue over 17 million passports. 
We have all of our passport agencies working extra shifts, 
working mandatory overtime. We have task forces operating in 
Washington.
    We have not been able to get the delay down to where we 
would like it to be. We are committed to following the rigorous 
adjudication processes to make sure that we only issue 
passports to persons entitled to them.
    Senator Schumer. So what do you say to somebody, if this 
plan were in effect, who gets an invitation to a party, to a 
wedding, to something on the other side of the border 3 or 4 
weeks from now and they do not have a passport?
    Mr. Simkin. We take a lot of steps to try to accommodate 
emergency situations. We have walk-in service at most of our 
agencies. We have an expedited service that can cut that time 
down considerably from 10 weeks.
    Senator Schumer. Have you made any plans to improve things 
on the border areas so we will not have long waits, so that 
people who on the spur--I mean, this does not even deal with 
the issue, about a quarter of the fans, for instance, who see 
the Buffalo Sabres are Canadians. I bet a lot of them decide to 
go that day. Now, are there plans to deal with these kinds of 
things? Let us take something that is not just a hockey game. 
Let us say, you know, there has to be a business meeting, there 
has to be a serious gathering of different people for one thing 
or another--a funeral.
    Mr. Simkin. Well, it is a legal requirement under the 
Western Hemisphere Travel Initiative, under the IRTPA 
legislation. We are trying to do everything we can to provide 
the best customer service to enable people to travel in the 
time that they wish to. We get hundreds of thousands of calls, 
and many of those calls we can prioritize the passport 
application for short-term travel. We can also route people to 
walk-in counter service to be able to try to meet their travel 
needs.
    Senator Schumer. Walk-in counter service? Do you have plans 
to open up lots of these walk-in counter places throughout 
western New York and throughout eastern Canada by January of 
2008? Do you have any plans for that?
    Mr. Simkin. No.
    Senator Schumer. OK. I mean, my questions are pretty 
obvious here in terms of where we are going.
    You would both agree that if there is a 6-week wait to 
get--let's say it is not 10 weeks, it goes back to 6--a 6-week 
wait before anyone could travel across the board, that would 
greatly hurt commerce along the whole Northern border 
dramatically and hurt the economy significantly? Do you agree 
with that? Yes or no.
    Mr. Simkin. I am really not an expert in commerce. It is 
obvious that there is an inconvenience factor to this--
    Senator Schumer. No, no, no. I did not ask inconvenience. 
That belittles it. A serious economic effect.
    Mr. Simkin. I really could not say what the effect is. I am 
not aware of any studies of what the effect would be.
    Senator Schumer. Isn't it common sense that if people who 
are used to traveling across the border in a totally different 
way now have to wait 6 weeks before they travel?
    Mr. Simkin. One thing I would point out with regard to the 
documents required for entry to the United States, this is a 
requirement that is levied at the port of entry. State and DHS 
work together on these things. Our job in the State Department 
is to issue the passports properly to people entitled to them 
in as fast and efficient a way as we possibly can.
    Senator Schumer. Now there is a 10-week wait.
    Mr. Simkin. Correct.
    Senator Schumer. That is not very fast.
    Chairman Feinstein. Senator, if I may?
    Senator Schumer. Yes.
    Chairman Feinstein. If you could truncate--
    Senator Schumer. I am almost finished.
    Chairman Feinstein. Because we have got another panel.
    Senator Schumer. OK. You agree, Mr. Morris? What is your 
view? Would a 6-week or a 10-week wait interfere with commerce 
across the Northern border from Seattle over to Presque Isle, 
or wherever the eastern order of Maine is?
    Mr. Morris. I think I would have to suggest, Senator that 
stating that it is a 6-week wait is perhaps not entirely 
accurate.
    Senator Schumer. No, but if it were. If it were.
    Mr. Morris. Well, we have launched a significant media 
campaign to make individuals aware of the current requirement 
for air travel. We are going to continue that to make any 
individuals aware of the land border and seaport requirement as 
well. Our hope would be that they would plan in advance to get 
the passport that they need so that there is no interruption in 
their travel when the actual requirement is put in place. And 
for those--
    Senator Schumer. There are certain things you cannot plan 
for, right? Funerals, emergencies, business meetings.
    Mr. Morris. That is true, and within Customs and Border 
Protection's discretionary authority, we can address those 
types of cases on a case-by-case basis as they arise.
    Senator Schumer. OK. I would just say--and I just have one 
more. I know you want to move, Madam Chairperson. I mean, we 
work with both of your Departments on these case-by-case bases, 
and sometimes it works out and sometimes it does not. And all 
of us have dealt with this because we get calls from our office 
regularly, and I would urge you to give more thought to this 
and not just treat it as business as usual or say, ``We will 
work it out on a case-by-case basis,'' because if this is 
implemented and then it creates a real problem, you all know 
that it is going to be worse than if it is--well, it is going 
to create huge problems.
    Just one more question. Many of us like the idea of using 
driver's licenses, the special new driver's licenses, as a 
better way to do this. It is a document people are familiar 
with. It is more inconvenience to you, less problems for the 
people at the border. Washington State is doing a pilot project 
in this regard. Can you tell us how it is going?
    Mr. Morris. I can tell you, Senator, that we have been 
actively engaged with the State of Washington in looking at 
this particular pilot. We would be happy to provide you more 
information through a--
    Senator Schumer. You are not familiar with it right now?
    Mr. Morris. No, I am not, sir.
    Senator Schumer. OK. Please, if you would. That is very 
important.
    Mr. Morris. Certainly.
    Senator Schumer. And I would urge you to look at 
alternatives like the driver's license alternative, which, as 
you can imagine, most everyone has a driver's license, they are 
used to a driver's license, they do not have to apply in 
advance, they do not have to pay, they have it anyway. I would 
urge you to look at that rather than sort of stick to business 
as usual, which does not quite work for our border.
    Thank you, Madam Chairperson.
    Chairman Feinstein. Thank you, Senator.
    Before I close out the panel, I would like to bring to 
their attention an article on the front page of the New York 
Times this morning, and that is the article entitled ``U.S. 
Seeks Closing of Visa Loophole,'' by Jane Perlez. And it points 
out that the head of the London bomb attack actually has a 
passport through the Visa Waiver Program and could have come to 
this country at any time under the Visa Waiver Program.
    I truly believe that the Visa Waiver Program is the soft 
underbelly of this Nation. The predominance of stolen passports 
makes it so easy and there are so many countries in the Visa 
Waiver Program. I just want to quote a part of it. ``Among the 
options that have been put on the table, according to British 
officials, was the most onerous option to Britain, that of 
canceling the entire Visa Waiver Program that allows all 
Britons entry to the United States without a visa.''
    I think--and I have been following this program closely for 
some amount of time--that the way it is run and the sloppiness 
with which it has been run really places this Nation in serious 
jeopardy. And I have said this over and over and over again. I 
was the one who fought against getting rid of the 3 per cent 
visa refusal rate for countries that want to participate in the 
program. I think we have a big problem there in that millions 
of people come in, well over 15 million people a year, 
essentially on a program where there is no check and no 
balance. And I would just like to leave you with those 
thoughts. And I think we are going to have much more to say 
about it in the future.
    So thank you very much for your testimony this morning. It 
is appreciated, and if you gentlemen have a chance to stay to 
listen to Mr. Noble, it might well be edifying.
    Chairman Feinstein. I would like to ask the second panel to 
come forward: the Honorable Ronald K. Noble, the Secretary 
General of Interpol; Clark Kent Ervin, Director of Homeland 
Security, Aspen Institute, former Inspector General, Department 
of Homeland Defense, and Author, ``Open Target: Where America 
Is Vulnerable to Attack''; and also Brian Zimmer, Senior 
Associate, Kelly, Anderson & Associates, and former Senior 
Investigator, Committee on the Judiciary, United States House 
of Representatives.
    If we can, we will begin with Mr. Noble, and let me thank 
you so much for coming here. It is very much appreciated. And I 
think you can note from my questions the interest that I have 
in the subject, and so I would very much appreciate your 
comments, if you can, addressing these points.

STATEMENT OF HON. RONALD K. NOBLE, SECRETARY GENERAL, INTERPOL, 
                          LYON, FRANCE

    Mr. Noble. Thank you very much. Chairman Feinstein, 
distinguished members of the Subcommittee, good morning. I will 
broaden the focus of my oral testimony to lay the foundation 
for why urgency should be felt by us all as we deal with the 
issue that brings us together today.
    Al Qaeda and al Qaeda-inspired terrorists are trying to 
kill and harm the world's citizens. They are doing so right 
now. Depending on the group, the circumstances, and the 
opportunities, they would love nothing more than to kill U.S. 
citizens and the friends of U.S. citizens on U.S. soil. But 
they also love targeting U.S. embassies, U.S. military vehicles 
and personnel, U.S. businesses, and U.S. citizens anywhere--
anywhere they might be found in the world. They know the 
combustible ingredients that attract worldwide attention. Al 
Qaeda strikes U.S. targets.
    There are those who blindly take comfort that the U.S. has 
not been hit hard within its borders since September 11, 2001. 
I know one high-ranking U.S. Government official who was so 
dedicated and committed to protecting U.S. citizens on U.S. 
soil that on any given day he could tell you how many days it 
had been since September 11, 2001.
    In my capacity as Interpol's Secretary General, I take no 
comfort, absolutely no comfort, in the fact that al Qaeda has 
not struck the U.S. within its borders since 9/11. Of course, 
we all should be thankful that no innocent lives have been 
taken or harmed. But viewing the absence of terrorist attacks 
on U.S. soil for a certain amount of time as a success is the 
wrong approach. And you talked about complacency earlier. It 
can give one a false sense of comfort, and it can make you 
falsely conclude that al Qaeda cannot strike as opposed to that 
al Qaeda has not yet chosen to strike.
    For me, I use different points of reference in terms of 
time and comfort. I see the time since the last terrorist 
attack as a time bomb that must be defused before it explodes. 
My point of reference is not the number of days between 
September 11, 2001, and today, which happens to be 2,059, but 
the number of days between the first World Trade Center attack 
by al Qaeda on February 26, 1993, and the second set of attacks 
on September 11, 2001. Al Qaeda waited and prepared for more 
than 8 years, 3,119 days, before striking the U.S. again on 
U.S. soil.
    This means that we cannot and should not take any real 
comfort from the fact that the U.S. has not been hit again 
since then. As I said, I use time bombs as my points of 
reference. I see members of al Qaeda, terrorists linked to al 
Qaeda, or individuals who are inspired by al Qaeda as human 
time bombs. They have almost 200 countries in the world where 
they can operate, whether they can plan or prepare and through 
which they can travel. The challenge for our generation and 
maybe for generations to follow is how can we individually and 
collectively prevent these vicious terrorists from killing or 
harming us and those we love and represent.
    Since September 11, 2001, Interpol has been regularly 
transforming itself to help each and every one of its member 
countries to disrupt, to prevent, to investigate, to track 
down, to apprehend, and to prosecute terrorists the world over. 
We have done so by thinking about this issue almost every 
minute of every day, by meeting and consulting with our member 
country national central bureaus and law enforcement officials 
from around the world, by engaging elected officials, appointed 
Government officials, reporters, business leaders, and citizens 
in discussions about what they see as weaknesses in their 
countries' or even other countries' antiterrorist efforts.
    The best way to describe Interpol's state-of-the-art 
approach to enhancing the border security of each and every 
country is to visualize tripwires interconnected around the 
globe and in the paths of terrorists and other dangerous 
criminals. Depending upon the type of tripwire that is tripped, 
either a silent or a loud alarm is triggered and alerting law 
enforcement that they might have a person of interest to 
another law enforcement agency somewhere in the world standing 
right in front of them, permitting them to move the person from 
primary to secondary inspection.
    Interpol's tripwire system is in place and is working. 
Between 2000 and 2006, the number of annual checks on our 
databases increased nearly tenfold, from 81,000 to over 
703,000. Between 2000 and 2006, the number of international 
wanted persons notices issued annually by us has nearly tripled 
from 1,000 to 2,800. The number of diffusions, or what we would 
know in the U.S. as Be On the Look-Outs, issued annually 
through Interpol has more than doubled from 5,000 to over 
12,000. The number of annual arrests of individuals who were 
subject to Interpol Red Notices or diffusions has surged from 
534 to over 4,000, a 698-percent increase.
    Now, despite the success that Interpol and its member 
countries have achieved working together in terms of gathering 
and sharing information from a wide variety of countries on 
suspected terrorists, and especially on stolen travel 
documents, there seems to be an intractable resistance in some 
corners of the U.S.' and other countries' bureaucracies to 
using information coming from global sources. These entities 
prefer to use the systems that were in place prior to the first 
World Trade Center bombing in 1993 and prior to the September 
11, 2001, terrorist attacks.
    As I said in my written testimony, if this view continues 
to reflect the attitude of those whom we expect to protect us 
from the next wave of terrorist attacks, we are in serious--and 
I repeat--serious trouble.
    Chairman Feinstein. Would you be specific on that point?
    Mr. Noble. Yes. If you were to read this morning's Wall 
Street Journal article regarding this hearing, you would see a 
quote given by the spokesperson from Customs and Border 
Protection saying that the Interpol system is not there yet, is 
not where it should be yet. And I believe this attitude 
courageously spoken on the record reflects the view of those 
people who remember Interpol 5 years ago or 6 years ago or 10 
years ago when this was true. We have changed. The world has 
changed. We believe it is important for that to be recognized.
    I will conclude with my formal remarks to say that, 
Chairman--and I say this with all sincerity--since you have 
organized these hearings, Interpol and our Stolen Lost and 
Travel Document database has gotten more attention from the 
U.S. than we received in my 6\1/2\ years as Secretary General--
not that the U.S. has not been trying and has not helped us. In 
fact, it is for that reason that we have the system in place, 
because they complained about the old system that was only an 
investigative tool. So thanks to the feedback, the work of the 
USNCB, and the hard work of individuals in U.S. Customs and 
U.S. Border. Now it is different. Progress has been made, but 
what I feel as Secretary General and the point I want to make 
is the time bomb, the ticking, your reference to what was 
promised last year, it will happen this year, we hope it will 
happen this year. But until it happens this year, there have 
got to be interim measures we can take.
    When I was 9 years old working in my father's store, we 
used to have a book with the numbers of all the credit cards 
that were reported stolen or that were no longer valid that we 
would refer to. So what Interpol is saying, the perfect system 
may never be developed, but the system we have in place now 
that is being used by Switzerland over 300,000 times a month is 
coming up with 100 hits each month. The system that we put in 
place in the Caribbean before the Cricket World Cup, the 
Caribbean countries, whom people oftentimes criticize as not 
being aggressive or hard-working enough, put the system in 
place in 4 months and now have gotten more hits in 4 months 
than they got in the prior 6 years.
    So we need the U.S. not only to put the system in place, 
but to advocate that other countries should put the system in 
place. Without the U.S. support, without the support of the 
elected Members of Congress, this Congress and other congresses 
and parliaments around the world, we believe people will take 
their time to make sure the system is put in place. And 
Interpol believes that time continues to run out for us.
    Thank you.
    [The prepared statement of Mr. Noble appears as a 
submission for the record.]
    Chairman Feinstein. Thank you, Mr. Noble. I have many 
questions.
    Mr. Ervin?

 STATEMENT OF CLARK KENT ERVIN, DIRECTOR OF HOMELAND SECURITY, 
 ASPEN INSTITUTE, AND FORMER INSPECTOR GENERAL, DEPARTMENT OF 
              HOMELAND SECURITY, WASHINGTON, D.C.

    Mr. Ervin. Thank you very much, Chairman Feinstein, for 
inviting me to testify on this very important topic, and I want 
to thank you for being the leader on this issue of dealing with 
the Visa Waiver Program and the related problem of stolen and 
lost passports. As you know, I have submitted a lengthy 
statement for the record, so I will only summarize it here.
    Like you, I believe that the single greatest vulnerability 
with regard to international documents is the Visa Waiver 
Program and, as I say, the inextricably interrelated problem of 
lost and stolen passports.
    As we put it back in a 2004 report during my time as DHS 
Inspector General, ``In the post-9/11 world the visa is more 
than a mere stamp in a passport. It is the end result of a 
rigorous screening process that the bearer must undergo before 
travel. By the end of the process, U.S. authorities have 
collected and stored considerable information about the 
traveler and his or her planned journey. When the visa is 
waived for broad classes of travelers, those travelers avoid 
this extensive examination, and the United States does not 
collect comparable information regarding them.''
    Visitors from non-visa waiver countries are nowadays almost 
always interviewed at an American embassy or consulate abroad 
about 90 percent. Many, if not most, of our interviewers are 
conversant in the language of the applicants, familiar with 
their customs, and trained in fraud detection techniques. 
Consular officials have the further luxury of spacing the 
interviews apart so as to maximize the time they have to 
question applicants.
    By way of contrast, there is no time for port-of-entry 
inspectors to interview visa waiver travelers. Hundreds of 
passengers, as we all know, disembark at any one time from 
international flights, and, understandably, inspectors feel 
pressure to clear them within 45 minutes. And even if they did 
interview passengers, most inspectors speak only English. The 
relative few who speak another language tend to speak Spanish, 
not languages like Arabic, Farsi, or Urdu, spoken in countries 
of concern.
    Far more written information is collected from non-visa 
waiver travelers than visa waiver travelers, and the finger 
scans taken at the port of entry from non-visa waiver travelers 
can be compared with those taken at the embassy or consulate 
where the visa application was made, establishing to a 
certainty that the person at the port of entry is the very same 
person who applied for the visa abroad.
    It is not, then, for nothing that shoe bomber Richard Reid 
was a British citizen. It is not for nothing that Zacarias 
Moussaoui, whom some believe to have been the 20th 9/11 
hijacker, was a French citizens. Terrorists prize passports 
from visa waiver countries because visa waiver travelers are 
subjected to much less scrutiny. That is why passports from 
visa waiver countries are occasionally stolen and used to 
attempt to enter the United States.
    We do not know the full extent of this problem, but we do 
know that it remains a serious one. The latest figures that I 
am aware of are from January to June 2005, when, according to 
GAO, 298 stolen visa waiver country passports were used to try 
to enter the United States. We do not know, of course, how many 
times customs inspectors failed to spot stolen passports. At 
least when we looked into this problem back in 2004, we found, 
incredibly enough, that DHS customs inspectors admitted 
travelers with stolen passports into this country 73 percent of 
the time when they knew that the passports were stolen.
    I want to take issue, if I may, with Mr. Everitt who said 
that it is invariably the case that when stolen passports are 
discovered by port-of-entry inspectors, they are confiscated. 
At least when we looked into this problem in 2004, on occasion, 
also incredibly, the passports were given back to the traveler 
so that he could go back to his country and attempt to use the 
stolen passport yet again.
    Instead of jettisoning the Visa Waiver Program, the 
administration, the President himself, and some Members of 
Congress want to expand it to reward certain countries for 
being good allies. There are other ways to show our 
appreciation than by further widening a security gap, it seems 
to me. Doing away with the Visa Waiver Program need not hurt 
tourism, trade, and our international image. As a committed 
internationalist and a former State Department official 
myself--I was the Inspector General there before becoming the 
Inspector General at Homeland Security. It was I, incidentally, 
and my staff who recommended that we increase the number of 
visa applicants who were interviewed. I have always believed 
that the State Department in general, and its consular bureau 
in particular, are seriously underfunded. If significantly more 
resources were provided to State, they could hire the 
additional consular officers needed to process applications 
from these 27 countries so that their travelers would not need 
to wait unduly long for a visa to visit the United States. And 
while we would lose, admittedly, our reciprocal right to visa 
waiver countries without a visa, that, it seems to me, is a 
rather small price to pay to close a big security gap.
    I just want to mention, in my statement I talk also, as you 
know, about the Visa Security Officer Program, the importance 
to my mind that the deadline with regard to the Western 
Hemisphere Travel Initiative, with regard to American 
passports, as to land and sea, be implemented on the deadline 
that is in the law, and we can talk about that, I hope, during 
the course of the question-and-answer period.
    But I just want to end by noting, as you did, the New York 
Times article this morning. If, in fact, the Secretary is 
considering either ending the Visa Waiver Program with regard 
to Britain entirely or applying it to British citizens of 
Pakistani descent--which seems to me is ethically questionable 
and would be politically difficult. So as between the two, if 
either is chosen, it seems to me likely that the administration 
would jettison Britain from the Visa Waiver Program.
    If we are going to do that, if we are contemplating doing 
that with regard to our closest ally, then I question whether 
we should extend the Visa Waiver Program to countries like 
Estonia, for example.
    Thank you very much, Madam Chairman.
    [The prepared statement of Mr. Ervin appears as a 
submission for the record.]
    Chairman Feinstein. Thank you very much, Mr. Ervin. I 
appreciate it.
    Mr. Zimmer?

STATEMENT OF BRIAN ZIMMER, SENIOR ASSOCIATE, KELLY, ANDERSON & 
 ASSOCIATES, AND FORMER SENIOR INVESTIGATOR, COMMITTEE ON THE 
     JUDICIARY, HOUSE OF REPRESENTATIVES, WASHINGTON, D.C.

    Mr. Zimmer. Chairman Feinstein, thank you for this 
opportunity to share my thoughts on strengthening the security 
of international travel documents.
    If one thinks of homeland security measures to prevent 
attacks and subversion by foreign terrorists as a patchwork 
quilt, it is evident that many of the patches which were absent 
before 9/11 have been put in place. The important premise is 
now generally accepted that identity documents needs to be 
physically very secure, very counter-resistant, and issued to 
people only after a thorough adjudication and authentication of 
source documents. This was not true before 9/11.
    Some important security patches are still missing, and 
others in place are only stop-gap measures and require more 
work. The missing ``security patch'' of greatest concern to me 
is the lack of substantial use of passport and identity card 
reading technology to authenticate documents at ports of entry. 
Another critical ``security patch'' that continues to be put on 
the back burner is the establishment of exit controls at every 
port of entry. The sophistication of our terrorist opponents 
requires that the Federal Government close these holes in the 
blanket of homeland security.
    Much has been accomplished to interrupt terrorist travel, 
and worthwhile initiatives have been undertaken by the 
administration to improve the security of travel documents, 
many of which are the result of congressional mandates and some 
initially proposed by Senator Feinstein and Senator Kyl.
    In the appendix to my written testimony, I have listed 
legislation since 2001 affecting travel and identity document 
security, and those of us familiar with the work of Senator 
Feinstein and Senator Kyl will recognize many of their 
initiatives.
    As a former House Judiciary staff member, it is 
particularly satisfying to see so much of the legislative 
branch's vision for improved security becoming reality.
    The adjudication for U.S. passports is highly dependent on 
the identity authentication prior to issuing driver's licenses, 
and so the REAL ID Act is included among the legislation in the 
appendix to my written testimony. It needs to be recognized as 
a critical element in securing international travel documents 
that we issue. Since some of the other witnesses have pointed 
out, as have the Senators, some of the absences of the 
administration, I would like to point out a few of the recent 
accomplishments they have completed.
    It is my view that the implementation of Western Hemisphere 
Travel Initiative for air travel to and from the United States 
in January of this year went off very effectively, to many 
people's surprise, including my own. This success occurred 
because of the thorough public outreach by the Federal agencies 
involved, the post office, and DHS's coordinated planning with 
airports and airline carriers.
    There has been a continued active outreach, and 
comprehensive planning for the next phase of WHTI at land ports 
of entry. DHS is undertaking a renovation of the border 
infrastructure to improve inspections and expedite travel, and 
also accommodate new readers for the PASS card and passport.
    The continued expansion of the Immigration Advisory Program 
is an accomplishment of this administration, required by 
Congress but, nonetheless, largely moving at a faster pace than 
I would have envisioned 2 years ago. It stops people from 
getting on planes bound for the United States when their 
identity documents do not measure up and, more importantly, 
when close inspection identifies them as high-risk travelers 
with actual or potential terrorist affiliations. With reference 
to Great Britain, this seems to me to be one of the more 
obvious immediate solutions that could be imposed prior to 
determination that they have to be dropped entirely. An effort 
should be made to see what could be done with that as soon as 
possible.
    There have been continued improvements at US-VISIT. This 
goes on behind the scenes, but there is an improving 
consolidation of watchlist indicators which works and directly 
applies to travelers under the U.S. Visa Waiver Program, and I 
think it is extremely important work that is going on there. I 
applaud those who are completing it.
    I think we have to acknowledge the administration has 
expanded use of terrorist watchlists to screen passenger 
manifest lists of international flights and has moved it from a 
largely unautomated process 6 years ago to one that is highly 
automated today in which information is quickly put into the 
filters that apply to manifests.
    There has been--not as rigorous as some would like, but 
much more rigorous than occurred before--enforcement of 
requirements on countries participating the Visa Waiver 
Program. We have to feel that, notwithstanding it was slower 
than we might have liked, today the passports of Visa Waiver 
Program countries are far more robust, and most of them have an 
improved adjudication process before issuing them.
    In conclusion, I think the Administration has met many of 
the mandates, but I think is struggling to meet the rest, and I 
thank you for this opportunity.
    [The prepared statement of Mr. Zimmer appears as a 
submission for the record.]
    Chairman Feinstein. Thank you very much, Mr. Zimmer, and 
let me thank all of you.
    I would like to begin with Mr. Noble. And, Mr. Noble, I am 
going to ask you about ten quick questions. I want it for the 
transcript. If you can answer yes or no or briefly fill in, you 
may want to fill in in writing later.
    What kind of information is available on the Interpol 
database?
    Mr. Noble. The stolen or lost passport number, the issuing 
country, whether the passport was stolen blank or lost, and the 
date of reported theft or loss. So no personal, no privacy 
information.
    Chairman Feinstein. Thank you. How many passports are 
registered in the database?
    Mr. Noble. We have over 6.7 million passports registered 
and over 14 million total stolen travel documents. And I might 
add, Chairman, since your last hearings--and we monitor your 
hearings--Norway, Japan, and Sweden are all now participating 
countries.
    Chairman Feinstein. Oh, good. That is excellent.
    How many passports are from visa waiver countries?
    Mr. Noble. From visa waiver countries, we have about 2.7 
million.
    Chairman Feinstein. And how many countries now contribute 
their data?
    Mr. Noble. 123 countries, and just to highlight, 5 years 
ago when we started, we had less than 12 countries and 3,000 
documents, and now we have 123 countries and over 14 million 
documents.
    Chairman Feinstein. How does data get into the database?
    Mr. Noble. The country that is the owner of the passport 
enters the data directly.
    Chairman Feinstein. So who owns the data?
    Mr. Noble. The country that issues the passport. Only they 
can enter it, only they can modify it, only they can delete it.
    Chairman Feinstein. Can another country add, delete, or 
modify U.S. data in the Interpol database?
    Mr. Noble. No.
    Chairman Feinstein. How fast is the search of the Interpol 
database?
    Mr. Noble. Instant, 2 to 4 seconds.
    Chairman Feinstein. Is it expensive to connect border entry 
points to the database?
    Mr. Noble. The image that we have here for you is 
Switzerland. Switzerland was able to connect 20,000 of its law 
enforcement officers to Interpol's system for about 100,000 
euros. And up there on that screen, you see the hits that have 
occurred between December 2005 and April 2007. And highlighted 
in red for you, Chairman, is the visa waiver country hits.
    Chairman Feinstein. And we do not currently use this 
database?
    Mr. Noble. The U.S. uses this database for investigative 
purposes and also has run samples to see whether or not it 
works. But on a real-time basis, when people are entering the 
country, the system is not yet being consulted regularly by the 
U.S. But as you heard and as I read in the newspaper, the plans 
are for it to occur by this fiscal year or at the latest this 
calendar year.
    Chairman Feinstein. I am very pleased to hear that. One 
last question. How much training is required to use the system?
    Mr. Noble. The same training that is required to scan the 
passport for purposes of it being searched at the national 
level. Once the passport is scanned, a light flashes up, either 
green or red, indicating whether or not there has been a hit. 
So very easy.
    Chairman Feinstein. Well, let me just say to you, I really 
hope we get into this system in a robust way. I am very 
worried. This country is still like a sieve. You know, Mr. 
Zimmer mentioned the US-VISIT program. We still cannot tell if 
people who come into this country ever leave. And I do not 
think the American people understand how lax our controls 
really are.
    I am going to follow up, and I am very grateful for you 
being here to see that we do get into this system. I think it 
is important.
    Mr. Noble. Could I just follow up with one other point that 
you made?
    Chairman Feinstein. Yes, please. go ahead.
    Mr. Noble. Because there have been some strong comments 
made about what should happen with regard to visa waiver 
countries. I do not want to get involved in a matter that does 
not concern me directly, but I would say that if the U.S. is 
thinking about eliminating the visa waiver for all of those 
countries that right now are some of your strongest partners in 
the fight against terrorism, I would try an interim response 
first. An interim response, I believe, is the same response 
that we use every day with our credit cards. If our credit card 
is lost or stolen, it takes us a matter of seconds or minutes 
for us to report that and even less time for the credit card 
company to cancel it.
    If we were to require all countries to report theft of 
stolen blank passports, which you highlighted, which is a major 
problem, and if it was put into the system instantly, and if 
all countries were required to have the system to check it 
instantly, it would have no value to--
    Chairman Feinstein. What do we need to do that?
    Mr. Noble. This is what the U.S.--I am sorry for pointing. 
This is where they were sitting before. Excuse me, sir. The 
U.S. is planning to do that, and I want to give you one case 
example to explain this.
    On April 23, 2003, there was a theft of 850 passports in 
Cyprus, 850 blank passports, on April 23rd--
    Chairman Feinstein. Of this year.
    Mr. Noble. 2003. 2003.
    Chairman Feinstein. OK.
    Mr. Noble. On January 20th of this year, 11 Iraqis were 
stopped at Monterrey, Mexico, because an immigration officer 
asked one of them a question that made him suspicious. 
Eventually, it turned out that these 11 Iraqis had 8 of the 
passports that had been stolen way back in 2003. But for those 
immigration officers stopping the persons in Monterrey, their 
plans were to get to California and then claim asylum.
    For us, we cannot take comfort by the view that there are a 
number of people, honest people, hard-working people, who want 
to claim asylum. We have to remember that the first World Trade 
Center attacks occurred by Ramzi Yousef carrying a stolen Iraqi 
passport and claiming asylum in order to get into the U.S.
    These same passports, after Interpol got member countries 
together, turned up in March and April in Spain and in Poland, 
and from this one case were able to dig down and identify 14 
people and identify a trafficking ring.
    So it is one thing to connect to the system, but we also 
need to make sure that, as my colleague to the left said, that 
if and when there is a hit, we do not give them the passport 
back and we do not ignore that the hit has occurred.
    Thank you.
    Chairman Feinstein. Thank you very much.
    Just in response, I do not think the United States is 
preparing to do away with the Visa Waiver Program per se. I 
hope there is a greater recognition of the hazards it presents 
because we do not even know if these people go home.
    Mr. Noble. Understood.
    Chairman Feinstein. I mean, once they come to this country, 
they are lost, effectively. And this is over 15 million people 
a year from 27 countries. This is a lot of people.
    So if I might, Mr. Zimmer, you mentioned that you think 
progress is being made with the US-VISIT program, and I am 
delighted to hear that. Do you think there is much progress 
being made with respect to identifying when people are actually 
leaving the country who are here?
    Mr. Zimmer. No, I do not, and personally, a Congressman 
that I worked for--and, of course, I worked with your staff 
over the years--it remains a deep concern to me that people at 
the State level are so indifferent to this, because a majority 
of the States would have the same option of adding lost and 
stolen passports from Interpol. They would not have to go 
through the Federal Government. None of them are interested in 
this project that I know of, despite its wide publicity. And a 
majority of them will issue a driver's license, at least a 
temporary one, but many will issue one for the full term based 
on any passport presented with no other identification. So it 
is a serious issue.
    Chairman Feinstein. Thank you.
    Mr. Ervin?
    Mr. Ervin. May I add something to that, Chairman?
    Chairman Feinstein. Yes, you may.
    Mr. Ervin. As you know, surely, a few months ago, I think 
about 6 months ago or so, Secretary Chertoff or the Department, 
anyway, announced essentially that the Department had given up 
on the notion of having an exit feature to US-VISIT because of 
the cost. And it seems to me, as you said, that this is a huge 
vulnerability. If, in fact, it is subsequently learned that we 
have inadvertently admitted a terrorist in this country, as you 
say, we have no way of knowing whether that person definitively 
has left the country.
    The US-VISIT system is incomplete and, to some degree, 
ineffectual, as long as it does not have a complementary exit 
feature.
    Chairman Feinstein. I would agree with that 100 percent.
    Mr. Noble, over 420 million travelers come into the United 
States each year. This gives, I think, Americans the scope of 
this. So many people come here. Is the Interpol database 
equipped to handle that many inquiries?
    Mr. Noble. Recognizing how careful you are about the record 
that is established here, I want to be very careful.
    Interpol's system can handle triggering the fact that a 
passport that has been reported stolen or lost is being used. 
But then afterwards, there is a verification process that is 
required, where human beings have to determine whether or not 
the passport has been stolen, whether or not the passport has 
been lost. And for that volume of people, we are going to need 
human resources.
    Right now, as Secretary General of Interpol, I do not have 
one human being from the Department of Homeland Security 
assigned to Interpol headquarters in Lyon. We do not--
    Chairman Feinstein. Is that right?
    Mr. Noble. Not one. We have Secret Service--
    Chairman Feinstein. Homeland Security has--what?--over 
200,000 employees. That is amazing.
    Mr. Noble. To me it is amazing, and I am going to try to 
beg the Secretary tomorrow to change that.
    The USNCB, which gets 10,000 messages per month, has 
vacancies. We believe we are a hub that can leverage the 
support that the U.S. gets around the world. But if the U.S. 
does not think it is important enough for Homeland Security to 
send people to work at Interpol, even though we developed these 
systems, even though we are the ones that invented it based on 
the U.S. feedback, it is hard for us to persuade other 
countries to dedicate the resources.
    I think with all of the human beings they have working in 
the Department of Homeland Security, they could find a handful 
of human beings to send to the USNCB and to Interpol 
headquarters to work on this important issue.
    Chairman Feinstein. Well, I would agree, and I hope to see 
Secretary Chertoff this afternoon, and I will mention it to 
him, that is for sure.
    Is it possible to screen people through Interpol before 
planes land in the U.S.? If so, how would that work?
    Mr. Noble. When I used to be the Chairman of the Financial 
Action Task Force, we were working for the system of currency 
transaction reports and suspicious activity reports where banks 
are required to send to the U.S. Government any currency 
transactions above a certain amount.
    In our view, if you required the same thing of airlines or 
airline reservation companies or of banks, you do not have them 
send personal data; you have them send to the U.S. Government 
the numbers of the passports being used for purposes of getting 
on an airline, making a reservation, or opening a bank account. 
Then a U.S. agency can get the information and actually decide 
whether or not the hit should lead to a disruption or actual 
monitoring and following of the individual.
    So I believe that could be a very important legislative--
    Chairman Feinstein. I just asked my staff, isn't that being 
done now? And you are nodding yes. Perhaps could you just add 
to this.
    Mr. Bartoldus. That is part of the AFIS transmission to the 
United States collected by CBP. The passport and the passport 
number is transmitted, and that will be what is used to bounce 
against the SLTD system by CBP.
    Chairman Feinstein. So, in other words, the manifest 
information comes before the plane leaves. Is that not correct?
    Mr. Bartoldus. There is a rule out right now to change it 
from 15 minutes after departure to before the plane leaves. The 
final rule is about to be announced.
    Chairman Feinstein. OK. That is helpful. Would you let us 
know when the rule is announced?
    Mr. Bartoldus. Yes.
    Chairman Feinstein. Thank you.
    Mr. Noble. That is very helpful and very positive, but I am 
proposing that we could consider pushing it out even further 
before the person gets on the plane, before the person gets a 
ticket, to alert law enforcement in the country concerned that 
this person is, in fact, possessing a passport that has been 
reported lost or stolen. That would give the investigative 
agencies in the country where the person boards the opportunity 
to do something. It would give the law enforcement in the U.S. 
an opportunity to do something. And it would not involve any 
kind of privacy violations whatsoever for the individuals 
concerned.
    Chairman Feinstein. In other words, the passport number, 
when you make your reservation, would automatically be 
checked--we should look at that, too.
    Mr. Noble. Yes, and then the hits would be sent out to the 
country that the airline will transit through, the end 
destination, and the origin of the passport. And that way, like 
with the Bank Secrecy Act, you can determine whether or not to 
investigate it overtly or investigate it covertly.
    Chairman Feinstein. Do other nation's airlines do this now?
    Mr. Noble. No.
    Chairman Feinstein. No one does it now.
    Mr. Noble. No one does it. No one does it. It is the first 
time it is being proposed, here today. And the goal is--I do 
not know how to think about this. Sometimes I think of borders 
of the U.S. as being the front-line defense, and sometimes I 
think of them as being the last line of defense. And one of 
Interpol's goals is for countries around the world to view the 
effort as being a mutually important sharing of responsibility. 
So if we could get the airlines to send this information to 
Interpol's database--and we do not kick the information back to 
the airlines, so we do not tell them whether there is a hit or 
not. We just have it go to the law enforcement agencies, and 
they can make the determination about what to do. And we would 
have more than the time that it takes for the plane to take off 
and land in a country. I think it would be an extraordinary 
contribution to the problem of--
    Chairman Feinstein. I think it would, too, and it would 
certainly prevent mistakes being made on board, you know, by 
crew and pilots. So it might be very, very useful.
    I think the time is moving on, but let me say thank you 
very much to the panel, and let me ask Mr. Ervin and Mr. 
Zimmer, do you have anything you would like to add at this 
point?
    Mr. Ervin. Well, there are a number of things, Senator, but 
if I could just make one point on this last issue.
    Chairman Feinstein. OK.
    Mr. Ervin. I do not have it in front of me, but I noted in 
my book last year that there was an offer made to Secretary 
Chertoff that I became aware of, and I think it was a September 
2005 letter from the Air Transport Association, that lobbying 
organization, and the Association of European Airlines to make 
the passenger manifest available to the United States 
Government at the time of check-in--not an hour before, and 
certainly not 15 minutes after the flight leaves, but at the 
time of check-in. And we all know now in the post-9/11 world, 
the check-in happens probably 2 to 3 hours before the flight 
leaves.
    Chairman Feinstein. That is right.
    Mr. Ervin. To my understanding, the Department has yet to 
take these two key institutions up on that offer. Obviously, if 
the passport numbers were then checked at that time, that would 
be a tremendously useful tool.
    Chairman Feinstein. I agree with that. I think that is a 
very good idea, and we will write a letter to Secretary 
Chertoff with that in it.
    Mr. Zimmer, any farewell comments?
    Mr. Zimmer. I will be brief. U.S. passports issued prior to 
the latest passport will remain in circulation and active use 
for border entry until 2016. Every major Mexican city near the 
border has a fairly substantial black market in lost and stolen 
passports and B-1 and B-2 crossing cards, which are often 
rented, by the way, by their legitimate owners. And, by the 
way, you could probably arrange for a clandestine visit and see 
one yourself if you are willing to disguise yourself. They are 
not at all secret and subtle, and these cities are easy to 
find. In fact, you just hold your hand up like this, and 
someone may walk up to you and take you there.
    Chairman Feinstein. Is that right?
    Mr. Zimmer. That is correct. Even though you would have to 
be a little bit less sophisticated in appearance than you are 
today.
    But the reason I point that out is that these markets are 
open to all comers, whether you are Iraqi, Polish, Argentine. 
They are available. Americans buy documents there when they 
have issues with their identities in the United States and can 
come back in with a valid passport containing a photo to which 
they have a close resemblance. This is the most difficult thing 
to detect at the border--an imposter who looks like the photo 
in the passport and who has memorized the details on the 
passport.
    Much of that could be stopped by changes in the procedures 
of the border inspectors and by the introductions of machines. 
This has been resisted by CBP since long before 9/11, and the 
machines themselves have been out there for 4 or 5 years. They 
are used extensively throughout Scandinavia. They are rolling 
out across Europe where countries are becoming more aware of 
this. The technology is there. It is backed by software that 
lists thousands of documents and to which lost and stolen 
passport data could easily be added so that they could be read. 
It also determines whether they are counterfeit documents.
    This is not that expensive, and it would absolutely stop 
most of this market in Mexico, and I understand it is growing 
in Canada, which makes sense.
    So I think this is an unbelievably overlooked opportunity. 
All the legislation is there. It is not expensive, but it is 
going to take a change in culture and concept at Customs and 
Border Patrol.
    Thank you.
    Chairman Feinstein. Thank you. I think that is a very 
helpful suggestion. We know the machines are there, but I am 
told the readers are not. They cannot read the machines, and so 
that is a problem.
    Mr. Zimmer. Excuse me, ma'am. Your legislation in 2002 
required them to put 1,000 scanners, and they do work, and so 
far they are using less than 500 of them. They have been mostly 
sitting in warehouses.
    Chairman Feinstein. So you are saying they can read--
    Mr. Zimmer. Absolutely. They simply choose not to use the 
reading machines they already purchased, nor have they upgraded 
with the more sophisticated readers that are available and are 
regularly purchased by countries like Iceland and Sweden, which 
read, again, thousands of documents.
    These have been demonstrated at some of the technology 
conferences. I think I was here at one 18 months ago on the 
Senate side where there was a choice of three of these machines 
from three different vendors. So you do not even have a sole-
source issue.
    Thank you.
    Chairman Feinstein. Thank you. Well, I think this has been 
very interesting, and I know Senator Kyl's staff is here, and I 
think we might do some joint letters and flesh out some of the 
things that have been developed here this morning and get more 
information and hopefully encourage some changes.
    I would like to thank you very much for being here, 
especially you, Mr. Noble, for coming all the way across the 
Atlantic. We appreciate it very much.
    Thank you, gentlemen, and the hearing is adjourned.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
